                                                                             Report No. DODIG-2013-139




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 25, 2013




                 Independent Auditor’s Report on
                 the Agreed-Upon Procedures for
                 Reviewing the FY 2013 Civilian
                 Payroll Withholding Data and
                 Enrollment Information




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                         Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                               4800 MARK CENTER DRIVE
                            ALEXANDRIA, VIRGINIA 22350-1500


                                                                       September 25, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
			             FINANCIAL OFFICER, DOD
		             UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND
			             READINESS
		             ASSISTANT SECRETARY OF THE AIR FORCE
			             (FINANCIAL MANAGEMENT AND COMPTROLLER)
		             CHIEF, NATIONAL GUARD BUREAU
		             DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
		             DIRECTOR, DEFENSE LOGISTICS AGENCY
		             NAVAL INSPECTOR GENERAL
		             AUDITOR GENERAL, DEPARTMENT OF THE ARMY
		             INSPECTOR GENERAL, DEPARTMENT OF ENERGY
		             INSPECTOR GENERAL, DEPARTMENT OF HEALTH AND
			             HUMAN SERVICES
		             INSPECTOR GENERAL, DEPARTMENT OF VETERANS AFFAIRS
		             INSPECTOR GENERAL, ENVIRONMENTAL PROTECTION AGENCY
		             INSPECTOR GENERAL, OFFICE OF PERSONNEL MANAGEMENT


SUBJECT: Independent Auditor’s Report on the Agreed-Upon Procedures for Reviewing
	        the FY 2013 Civilian Payroll Withholding Data and Enrollment Information
	        (Report No. DODIG-2013-139)

We are providing this final report for your information and use.

We appreciate the courtesies extended to the staff.       Please direct questions to me at
(703) 601-5945.




                                              Lorin T. Venable, CPA
                                              Assistant Inspector General
                                              Financial Management and Reporting




                                                                                       DODIG-2013-139 │ 1
                                              INSPECTOR GENERAL
                                             DEPARTMENT OF DEFENSE
                                             4800 MARK CENTER DRIVE
                                          ALEXANDRIA, VIRGINIA 22350-1500


                                                                                      September 25, 2013

              The Honorable Patrick E. McFarland
              Inspector General
              U.S. Office of Personnel Management
              Theodore Roosevelt Federal Building
              1900 E Street NW, Room 6400
              Washington, D.C. 20415-0001

              SUBJECT: Independent Auditor’s Report on the Agreed-Upon Procedures for Reviewing
              	        the FY 2013 Civilian Payroll Withholding Data and Enrollment Information
              	        (Project No. D2013-D000FP-0086.000)

              Dear Mr. McFarland:

              We performed the procedures described in the Enclosure, which were agreed to by the
              Chief Financial Officer and the Inspector General of the U.S. Office of Personnel Management
              (OPM). We performed these procedures solely to assist in assessing the reasonableness of
              the employee withholdings and employer contributions that the Defense Finance and
              Accounting Service (DFAS) reported on Standard Form 2812, “Report of Withholdings
              and Contributions for Health Benefits, Life Insurance, and Retirement,” for the pay periods
              ending August 25, 2012; September 8, 2012; October 20, 2012; February 23, 2013; and
              March 9, 2013. We also performed these procedures to assist in assessing the reasonableness
              of the amounts reported in the, “Supplemental Semiannual Headcount Report,” as of
              September 1, 2012, and March 1, 2013.          The reports submitted by DFAS included
              information for the following entities listed in Appendix A of the Office of Management
              and Budget, Bulletin No. 07-04, “Audit Requirements for Federal Financial Statements,” as
              amended: the Department of Defense (DoD), Department of Energy (DOE), Department
              of Health and Human Services (HHS), Department of Veterans Affairs (VA), and the
              Environmental Protection Agency (EPA). In addition, we performed procedures to assist
              OPM in identifying and correcting errors relating to the processing and distribution of
              Combined Federal Campaign payroll deductions.

              Using Audit Command Language software, we randomly selected a sample of 360 employees
              from the October 20, 2012, pay period and 40 employees from the February 23, 2013,
              pay period from the 11 DFAS payroll data files (Army, Navy, Air Force, Other Defense
              Organizations [ODO], Overseas Army/DoD, Overseas DoD, Shipyard DoD, DOE, HHS, VA,
              and EPA). We compared the sample of 400 employees’ pay and withholdings and agency


2 │ DODIG-2013-139
contributions in the Defense Civilian Pay System to the documentary support in the Official
Personnel Files (OPFs). Of the 400 OPFs, 200 represented DoD employees, 50 represented
DOE employees, 50 represented HHS employees, 50 represented VA employees, and
50 represented EPA employees.

Auditors from the DOE Inspector General performed the agreed-upon procedures that
involved reviewing DOE OPFs. Auditors from the HHS Inspector General performed the
agreed‑upon procedures that involved reviewing HHS OPFs. We reviewed their working
papers and determined that we could rely on their work.

We performed the agreed-upon procedures in accordance with generally accepted
Government auditing standards, which incorporate financial audit and attestation
standards established by the American Institute of Certified Public Accountants.           The
sufficiency of these procedures is solely the responsibility of the OPM Chief Financial
Officer and the OPM Inspector General.          Consequently, we make no representation
regarding the sufficiency of the procedures either for the purpose for which this report
has been requested or for any other purpose.

We were not engaged to express an opinion on whether the health benefits, life
insurance, and retirement contributions and withholdings, and the enrollment information
submitted by DFAS to OPM were reasonable and accurate. Accordingly, we did not conduct
an examination, nor did we express such an opinion.           Had we performed additional
procedures, other matters might have come to our attention that we would have reported
to you. We provided a discussion draft of this report to the entities listed in the transmittal
memorandum and we considered management comments when preparing the final report.

This report is intended solely for the information and use of the OPM Chief Financial Officer
and OPM Inspector General and is not intended to be used by those who have not agreed
to the procedures or have not taken responsibility for the sufficiency of the procedures for
their purposes. However, the report is a matter of public record, and its distribution is not
limited; thus, we will post the report on our website and provide copies upon request.

                                         Sincerely,




                                          Lorin T. Venable, CPA
                                          Assistant Inspector General
                                          Financial Management and Reporting

Enclosure:
As stated
                                                                                            DODIG-2013-139 │ 3
                 Enclosure: Agreed-Upon Procedures
                 Performed and Results
                 This section contains the OPM Agreed-Upon Procedures and the results of completing
                 those procedures.


                 Overall Procedure
                 For employee benefit withholding and contributions, obtain the Agency Payroll
                 Provider’s September 2012 and March 2013 Semiannual Headcount Report submitted to
                 OPM and a summary of Retirement and Insurance Transfer System (RITS) submissions
                 for September 2012 and the current fiscal year. For each program (retirement, health,
                 and life), select a total of three RITS submissions for September 2012 and the current
                 FY 2013; two will coincide with the September 2012 and March 2013 Semiannual
                 Headcount Report. Obtain payroll information for the periods covered by the RITS
                 submissions selected.1

                 For the Combined Federal Campaign (CFC) payroll deductions, obtain the following
                 documentation for the Federal agencies serviced by the Agency Payroll Provider:

                              a)	 A list of all field offices/duty stations in existence during the fall 2012 CFC
                                  solicitation period (September 1, 2012 through December 31, 2012) for each
                                  Federal agency serviced. The list must include either the OPM Office Duty
                                  Station Code or the county, city, state and zip code for the field office.

                              b)	A list of all local CFC campaigns and the areas they cover. This list should be
                                  obtained directly from the OPM Office of CFC Operations (OCFCO) by sending
                                  an e-mail request to cfc@opm.gov. The subject line of the e-mail should be
                                  “Payroll Office AUPs-2012 CFC Campaign Location List Request.”

                              c)	 A list of accounting codes used by the Agency Payroll Provider to identify
                                  each local CFC campaign. The list should include the accounting code, name
                                  of campaign, name of Principal Combined Fund Organization (PCFO) for that
                                  campaign, and address of PCFO.

                              d)	A report of all employees with CFC deductions from the RITS submission
                                  selected to coincide with the March 2013 Semiannual Headcount. The report
                                  must include each employee’s official duty station location and the agency

                 	1	
                       Due to unusual circumstances this year, four pay periods were required to reconcile the March and September semiannual
                       headcount reports.




4 │ DODIG-2013-139
            payroll provider’s accounting code identifying the campaign to which each
            employee’s funds are being distributed.


Procedure 1.
Compare RITS submission data to the payroll information by performing the following
procedures (Note: For cross-servicing agencies, if the internal controls are the same for
all agencies serviced, it is only necessary to perform this procedure for one agency.):


Procedure 1.a.
Recalculate the mathematical accuracy of the payroll information.


Procedure 1.b.
Recalculate the mathematical accuracy of each RITS submission for the payroll
information selected in step 1.a.


Procedure 1.c.
Compare the employee withholding information at the aggregate level for Retirement,
Health Benefits, and Life Insurance (as adjusted for reconciling items) shown on the
payroll information obtained in step 1.a. to the related amounts shown on the RITS
submission for the corresponding period.

Report any differences for each of the Retirement, Health Benefits, and Life
Insurance (categories) for step 1.c. that are over one percent of the aggregate amount
reported for each of the three categories. Obtain a management official name, an
explanation, telephone number, and an e-mail address for the differences above the
one percent threshold.


Results
There were no differences greater than 1 percent for this comparison.


Procedure 2.
Perform detail testing of a random sample of transactions as follows: (See
Procedures 2.a.-j.)


Procedure 2.a.
Randomly select a total of 25 individuals who were in the payroll system for all three
of the RITS submissions selected above that meet all the following criteria. In addition,


                                                                                          DODIG-2013-139 │ 5
                 randomly select five individuals who are under FERS-RAE to test that their FERS-RAE
                 contribution rate was calculated correctly2:

                               •	 covered by the Civil Service Retirement System (CSRS) or the Federal
                                   Employees Retirement System (FERS);

                               •	 enrolled in the Federal Employees Health Benefit Program (FEHB);

                               •	 covered by Basic Federal Employee Group Life Insurance (FEGLI); and

                               •	 covered by at least one (FEGLI) optional coverage (Option A, B, or C).

                 Procedure 2.b
                 Obtain the following documents, either in electronic or hardcopy format, from the
                 Official Personnel File (OPF) for each individual selected in step 2.a. Hardcopies can
                 be originals or certified copies.

                               •	 All Notifications of Personnel Actions (SF-50) covering the pay periods in the
                                   RITS submissions chosen;

                               •	 Health Benefits Election Form (SF-2809) covering the pay periods in the
                                   RITS submissions chosen or, if applicable, obtain a report (via the agency
                                   personnel office) from the agency’s automated system that allows
                                   participants to change benefits, (e.g., Employee Express), for any Health
                                   Benefits transactions in that system for the individuals selected in
                                   step 2.a. (note: a new SF-2809 is needed only if an employee is changing
                                   health benefit plans; therefore, the form could be many years old); and

                                            °° For Health Benefits, compare date of transaction with date on the
                                                certified copy of the SF-2809 or the agency’s automated system
                                                report obtained above to identify whether the health benefit
                                                information to be used in the step 2.f. covers the pay periods in the
                                                RITS submissions chosen.

                               •	 The Life Insurance Election Form (SF-2817) covering the pay periods in the
                                   RITS submission chosen (note: a new SF-2817 is needed only if an employee
                                   is changing life insurance coverage, therefore the form could be many
                                   years old).


                 	2	
                       Employees covered by FERS include Federal employees covered by Federal Employees Revised Annuity Employees system
                       (FERS-RAE) – effective date January 1, 2013. For more information and the FERS-RAE contribution rates, see BAL 12-104
                       available on the OPM Web site at http://www.opm.gov/retire/pubs/bals/2012/12-104.pdf




6 │ DODIG-2013-139
Results
We identified 20 documents that were incomplete or missing.                   We identified two
documents from the Air Force, three documents from the ODOs, two documents from
DOE, two documents from EPA, two documents from HHS, and nine documents from VA
that were either missing, or incomplete.

Table 1. Number and Type of Documents Incomplete or Missing by Organization

                          SF-50                     SF-2809                 SF-2817
 Organization      Incomplete     Missing   Incomplete    Missing   Incomplete    Missing   Total
 Army                                                                                         0
 Army NG                                                                                      0
 Air Force                           1                                  1                     2
 Air Force NG                                                                                 0
 ODO                                                                                  3       3
 DOE                                 2                                                        2
 EPA                                 1                                                1       2
 HHS                                                                                  2       2
 Navy                                                                                         0
 VA                                  5          1             1         2                     9
  Total               0              9          1             1         3             6      20


Procedure 2.c.
For each individual selected in step 2.a., compare the base salary used for all payroll
purposes and upon which withholdings and contributions generally are based to the
base salary reflected on the employee’s SF-50. Report any differences resulting from
this step and obtain management’s explanation for the differences.


Results
We identified seven differences, and DOE auditors identified two differences for a total
of nine differences. We found one difference for EPA, five for VA, and one for Air Force.
These differences occurred because the applicable SF-50 was missing. The DOE noted
the employees pay increase was not processed in a timely manner.


Procedure 2.d.
For Retirement for each individual selected in step 2.a., compare the retirement plan
code from the employee’s SF-50 to the plan code used in the payroll system. Report
any differences resulting from this step and obtain management’s explanation for
the differences.

                                                                                                    DODIG-2013-139 │ 7
                 Results
                 We did not identify any differences for procedure 2d.


                 Procedure 2.e.
                 For each individual selected in step 2.a., calculate the retirement amount to be withheld
                 and contributed for the plan code from the employee’s SF-50, by multiplying the base
                 salary from the employee’s SF-50 by the official withholding and contribution rates
                 required by law. Compare the calculated amounts to the actual amounts withheld and
                 contributed for the retirement plan. Report any differences resulting from this step and
                 obtain management’s explanation for the differences.


                 Results
                 We identified four differences, and DOE auditors identified two differences for a total of
                 six differences. We identified one difference for EPA, two for VA, and one for Air Force.
                 These differences occurred because the applicable SF-50 was missing or the respective
                 Human Resource offices and DFAS management did not provide an adequate explanation.


                 Procedure 2.f.
                 For Health Benefits for each individual selected in step 2.a., compare the employee
                 withholdings and agency contributions to the official subscription rates issued by
                 OPM for the plan and option elected by the employee, as documented by a Health
                 Benefits Election Form (SF-2809) in the employee’s OPF or automated system
                 that allows the participant to change benefits (e.g., Employee Express).          Report
                 any differences resulting from this step and obtain management’s explanation
                 for the differences. The health benefits rates can be found on the OPM website at
                 http://www.opm.gov/insure/health/rates/index.asp.


                 Results
                 We identified two differences for VA. The differences occurred because the applicable
                 SF-2809s or SF-2810s were incomplete or missing.


                 Procedure 2.g.
                 For Life Insurance for each individual selected in step 2.a., confirm that Basic Life
                 Insurance was elected by the employee by inspecting the Life Insurance Election
                 Form (SF-2817) documented in the employee’s OPF. Report any differences resulting
                 from this step and obtain management’s explanation for the differences.




8 │ DODIG-2013-139
Results
We identified two differences, one for VA and one for ODO. These differences occurred
because the appropriate SF-2817s were not provided.


Procedure 2.h.
For each individual selected in step 2.a., calculate the withholding and contribution
amounts for Basic Life Insurance using the following:

          •	 For employee withholdings: Round the employee’s annual base salary up to
            the nearest thousand dollars and add $2,000. Divide this total by $1,000 and
            multiply by the rate required by law. The life insurance rates can be found on
            the OPM website at http://www.opm.gov/insure/life/rates/index.asp.

          •	 For agency contributions: Divide the employee withholdings calculated above
            by two.

Compare the calculated employee withholdings and agency contributions to the actual
amounts withheld and contributed for Basic Life Insurance. Report any differences
resulting from this step and obtain management’s explanation for the differences.


Results
We identified one difference for ODO. The difference occurred because the applicable
SF‑2817 was missing.


Procedure 2.i.
Also, for Life Insurance for each individual selected in step 2.a., compare optional
coverage elected as documented on the SF-2817 in the employee’s OPF to the optional
coverage documented in the payroll system. Report any differences resulting from
this step and obtain management’s explanation for the differences.


Results
We identified five differences, DOE identified one, and HHS identified two differences
for a total of eight differences. We identified two with VA, and three with ODO. The
differences occurred because the applicable SF-2817s were incomplete or missing.




                                                                                         DODIG-2013-139 │ 9
                 Procedure 2.j.
                 For each individual selected in step 2.a., calculate the withholding amounts for optional
                 life insurance using the following:

                            •	 For Option A: Locate the employee’s age group using the age groups provided
                              for Option A in the FEGLI Program Booklet. The withholding amount to
                              be used is the rate listed in the FEGLI Program Booklet for that age group.
                              Compare the calculated amount to the amount withheld for Option A Life
                              Insurance.   Report any differences resulting from this step and obtain
                              management’s explanation for the differences.

                            •	 For Option B: Inspect the SF-2817 to obtain the number of multiples
                              chosen for Option B. Locate the employee’s age group using the age groups
                              provided for Option B in the FEGLI Program Booklet. Round the employee’s
                              annual rate of basic pay up to the next $1,000, divide it by 1,000, and then
                              multiply it by the rate for the respective age group. Multiply this amount
                              by the number of multiples chosen for Option B Life Insurance. Compare
                              the calculated amount to the amount withheld for Option B Life Insurance.
                              Report any differences resulting from this step and obtain management’s
                              explanation for the differences.

                            •	 For Option C: Inspect the SF-2817 to obtain the number of multiples
                              chosen for Option C. Locate the employee’s age group using the age groups
                              provided for Option C in the FEGLI Program Booklet.             Multiply the
                              rate for the age group by the number of multiples chosen for Option C
                              Life Insurance. Compare the calculated amount to the amount withheld
                              for Option C Life Insurance. Report any differences resulting from this
                              step and obtain management’s explanation for the differences.

                 Results
                 We identified three differences for ODO. The SF-2817 elections did not match deductions
                 for one. DFAS did not provide an adequate explanation. The SF-2817s were not provided
                 for two.


                 Procedure 3.
                 Randomly select a total of 10 employees who have no Health Benefits withholdings
                 from the payroll information corresponding to the three RITS submissions selected
                 above and perform the following for each employee selected.




10 │ DODIG-2013-139
Procedure 3.a.
Obtain SF-2809s covering the pay periods in the RITS submissions chosen, either in
electronic or hardcopy format, from the selected employee’s OPF or, if applicable,
obtain a report (via the agency personnel office ) from the agency’s automated system
that allows participants to change benefits, (e.g., Employee Express), for any Health
Benefit transactions in that system for the individuals selected.       Hard copies can
be originals or certified copies. Inspect the documentation (that is, SF-2809 or the
agency’s system‑generated report) to identify whether health benefits coverage was
not elected. This can be identified in the following ways:

          •	 absence of an SF-2809 in the OPF and no election of coverage made through
            the agency’s automated system that allows participants to change benefits
            (e.g., Employee Express); or

          •	 an SF-2809 in the OPF with Section E checked (indicating cancellation of
            coverage) and no later election of coverage through the agency’s automated
            system that allows participants to change benefits (e.g., Employee Express);
            or

          •	 cancellation of coverage through the agency’s automated system that allows
            participants to change benefits (e.g., Employee Express) and no later election
            of coverage with an SF-2809.

Procedure 3.b.
Compare the result in step 3.a. to the RITS submissions. Report any differences resulting
from this step and obtain management’s explanation for the differences.


Results
We did not identify any differences for procedure 3b.


Procedure 4.
Randomly select a total of 10 employees who have no Life Insurance withholdings
from the payroll information corresponding to the three RITS submissions selected
above and perform the following for each employee selected.


Procedure 4.a.
Obtain the SF-2817s covering the pay periods in the RITS submissions chosen, either
in electronic or hardcopy format, from the selected employee’s OPF. Hardcopies can be




                                                                                         DODIG-2013-139 │ 11
                 originals or certified copies. Inspect the SF-2817 to identify that the employee waived or
                 cancelled Basic Life Insurance coverage.


                 Procedure 4.b.
                 Compare the result in step 4.a. to the RITS submissions. Report any differences resulting
                 from this step and obtain management’s explanation for the differences.


                 Results
                 We identified three differences, and HHS auditors identified one difference for a total
                 of four differences. We identified one difference with EPA, one with VA, and one with
                 ODO. The differences occurred because the SF-2817s were incomplete or missing.


                 Procedure 5.
                 Calculate the headcount reflected on the September 2012 and March 2013 Semiannual
                 Headcount Report selected, as follows.


                 Procedure 5.a.
                 Obtain existing payroll information (from step 1.a.) supporting each Supplemental
                 Semiannual Headcount report. If existing payroll data is not available, obtain a payroll
                 system query that summarizes detailed payroll data supporting each Supplemental
                 Semiannual Headcount Report, as follows:

                           •	 Benefit Category (see Semiannual Headcount Report).

                           •	 Dollar Amount of withholdings and contributions.

                           •	 Number Enrolled (deductions made/no deductions).

                           •	 Central Personnel Data File Code.

                           •	 Aggregate Base Salary.

                 Procedure 5.b.
                 Recalculate the Headcount reflected on each Semiannual Headcount Report. If an
                 electronic file is not available, a suggested method of recalculating the Headcount is as
                 follows: (1) estimate the number of employees per payroll register page by counting the
                 employees listed on several pages, (2) count the number of pages in the payroll register,
                 and (3) multiply the number of employees per page by the number of pages, or count
                 (using a computer audit routine) the number of employees on the payroll data file for
                 the period.


12 │ DODIG-2013-139
Procedure 5.c.
Compare the payroll information obtained in step 5.a. and the calculated headcount from
step 5.b. to the information shown on each respective Semiannual Headcount Report.


Procedure 5.d.
Report any differences (e.g., gross rather than net) greater than two percent between
the headcount reporting on each respective agency Semiannual Headcount Report and
payroll information from step 5.a. and the calculated Headcount from step 5.b. Obtain a
management official name, telephone number, an e-mail address, and an explanation for
the differences.


Results
There were six differences greater than 2 percent for this comparison. We identified
one difference each with DoD Overseas Operations and Army Overseas Operation
for the number of employees enrolled. DFAS did not provide an explanation for these
differences. We also identified four differences in aggregate base pay. We identified one
difference with DoD Overseas Operations, one with HHS, and two with VA. DFAS stated
that market and availability pay should be included in the calculation of base pay. When
we added the totals for market and availability pay to our calculations we identified
five differences.    We identified one difference with DoD Overseas Operations, two
with Army Overseas Operations, and two with VA. DFAS did not provide any further
explanation for these differences.


Procedure 6.
Calculate employer and employee contributions for Retirement, Health Benefits, and
Life Insurance as follows:


Procedure 6.a.
Calculate Retirement withholdings and contributions for the three pay periods selected
in step 1.a., as follows:


Procedure 6.a.i.
Multiply the CSRS and FERS payroll base by the withholding and employer contribution
rates required by law.




                                                                                        DODIG-2013-139 │ 13
                 Procedure 6.a.ii.
                 Compare the calculated totals from step 6.a.i. to the related amounts shown on the
                 RITS  submissions. Report any differences (e.g., gross rather than net) between the
                 calculated amounts and the amounts reported on the RITS submissions that are greater
                 than five  percent of the amounts on the RITS submission, and obtain management’s
                 explanation for the differences.


                 Results
                 There were no differences greater than 5 percent for this comparison.


                 Procedure 6.b.
                 Calculate employee withholdings and employer contributions for Health Benefits for the
                 three pay periods selected in step 1.a., as follows:


                 Procedure 6.b.i.
                 Multiply the number of employees enrolled in each Health Benefits plan and plan option
                 by the employee withholdings and employer contributions for the plan and option.


                 Procedure 6.b.ii.
                 Sum the totals in step 6.b.i. and compare the result with the Health Benefit withholding
                 and contribution amounts shown on the RITS submissions. Report any differences
                 (e.g., gross rather than net) between the calculated amounts and the amounts reported
                 on the RITS submissions that are greater than five percent of the amounts on the RITS
                 submission, and obtain management’s explanation for the differences.


                 Results
                 There were no differences greater than 5 percent for this comparison.


                 Procedure 6.c.
                 Calculate the Basic Life Insurance employee withholdings and employer contributions
                 for the three pay periods selected in step 1.a., as follows:


                 Procedure 6.c.i.
                 Obtain a payroll system query from APP personnel to obtain the total number of employees
                 with Basic Life Insurance coverage and the aggregate annual basic pay for all employees
                 with Basic Life Insurance.




14 │ DODIG-2013-139
Procedure 6.c.ii.
For employee withholdings: Add the product of 2,500 times the number of employees
with Basic Life Insurance coverage from step 6.c.i. above to the aggregate annual basic
pay for all employees with Basic Life Insurance from step 6.c.i. above to calculate the
estimated total Basic Life Insurance coverage. Divide this calculated total by 1,000 and
multiply it by the withholding rate required by law. The Life Insurance withholding rates
are found in the FEGLI Program Booklet on OPM’s website.


Procedure 6.c.iii.
Compare the result in step 6.c.ii. to the withholdings for Basic Life Insurance coverage
reported on the RITS submission.       Report any difference (i.e., gross rather than
net) between the estimate and the amount of withholdings reported on the RITS
submission greater than five percent of the amounts on the RITS submission, and obtain
management’s explanation for the difference.


Results
There were no differences greater than 5 percent for this comparison.


Procedure 6.c.iv.
For agency contributions: Divide the results of step 6.c.ii. by two—this approximates
agency contributions, which are one-half of employee withholdings. Compare this result
to the amount reported on the RITS submission. Report any differences (i.e., gross rather
than net) between the estimated amount and the actual amount reported on the RITS
submission that are greater than five percent of the amounts on the RITS submission,
and obtain management’s explanation for the differences.


Results
There were no differences greater than 5 percent for this comparison.


Procedure 6.d.
Calculate the Option A, Option B and Option C Life Insurance coverage withholdings
for the three pay periods selected by using detail payroll reports used to reconcile
the RITS reports in Step 1. In addition to the information used for step 1, the reports
should include the employee’s date of birth, annual rate of basic pay, and number of
multiples selected for Option B and C. Note: While similar to step 2.j., the calculation
at this step is for the entire amount reported on the RITS submissions for the
three pay periods selected, as opposed to the sample of 25 employees in step 2.j.



                                                                                        DODIG-2013-139 │ 15
                 Procedure 6.d.i.
                 Multiply the number of employees in each age group by the appropriate rate for Option A
                 in accordance with the rates for age groups provided in the FEGLI Program Booklet.


                 Procedure 6.d.ii.
                 Compare the result in step 6.d.i. to the amounts for Option A reported on the RITS
                 submissions. Report any differences (i.e., gross rather than net) greater than two percent
                 of the amounts on the RITS submission, and obtain management’s explanation for the
                 differences.


                 Results
                 There were no differences greater than the 2 percent threshold for this Option A
                 comparison.


                 Procedure 6.d.iii.
                 Segregate the reports for Option B and Option C insurance into the age groups shown
                 in the FEGLI Program Booklet. For Option B, round the employee’s annual rate of
                 basic pay up to the next $1,000, then divide it by 1,000, and then multiply this amount
                 by the rate for the age group, by then multiplying this by the number of multiples:

                 (Annual rate of basic pay (rounded up) /1,000*rate*multiples).

                 For Option C, multiply the rate for the age group by the number of multiples chosen for
                 each employee.


                 Procedure 6.d.iv.
                 Compare the result in step 6.d.iii. to the amounts for Option B and Option C, respectively,
                 reported on the RITS submissions.       Report any differences (i.e., gross rather than
                 net) greater than two percent of the amounts on the RITS submission for Option B or
                 Option C, and obtain management’s explanation for the differences.


                 Results
                 There were no differences greater than 2 percent for the Option B comparison.
                 Additionally, there were no differences greater than 2 percent for the Option C
                 comparison.




16 │ DODIG-2013-139
Procedure 7.
Compare the list of field offices/duty stations to the list of local CFC campaigns obtained
from OPM’s OCFCO.


Procedure 7.a.
Determine in which campaign each field office/duty station is located. (Note: It is possible
for a field office/duty station to be in a location with no local CFC campaign.)


Results
We determined the campaign for each field office/duty station.


Procedure 8.
Compare the list of accounting codes to the identified campaigns for each field
office/duty station.


Procedure 8.a.
Determine the accounting code for each field office/duty station.


Procedure 8.b.
Determine if the name of the campaign, the PCFO, and address of the PCFO in the
Agency Payroll Provider system agree to the information for that field office/duty
station on the list of local CFC campaigns obtained from OPM’s OCFCO.


Results
We determined that the name of the campaign, the PCFO, and the PCFO address in the
Defense Civilian Pay System agreed with the OPM list of CFC campaign codes, except
for 1 out of 184 Defense Civilian Pay System codes. DFAS personnel stated that the
name of the campaign changed in 2012 with the merger of multiple campaigns.


Procedure 9.
Sort the report of all employees with CFC deductions by Official Duty Station.


Procedure 9.a.
Compare the Official Duty Stations to the campaigns identified for those locations.




                                                                                           DODIG-2013-139 │ 17
                 Procedure 9.b.
                 Compare the Accounting Codes for each employee with CFC deductions to the accounting
                 code identified for that employee’s Official Duty Station.

                           •	 Determine if this agrees to the accounting code identified for that field
                             office/duty station.

                 Results
                 We determined that 5,048 out of 151,732 employees with CFC deductions for the pay
                 period ending February 23, 2013, were incorrectly coded. Specifically, 1,176 geographic
                 location codes differed from the geographic codes corresponding to their duty stations
                 and 3,872 instances where a Federal agency accounting code did not match the
                 CFC campaign for the employee’s geographic location.         We identified differences
                 for the Army, Air Force, Navy, ODO, Overseas DoD, Overseas Army, DOE, HHS, EPA,
                 and VA payroll offices. The Army stated that, based on their review of 26 employees
                 from 6  major commands, the Customer Service Representatives are inputting the
                 correct codes into the Defense Civilian Payroll System from the CFC forms provided
                 by the employees and concluded that corrective action was not necessary. Air Force
                 stated that they were provided with incorrect pre‑populated pledge forms, and an
                 incorrect geo-location code was provided. DOE stated that they were provided with
                 incorrect pre-populated pledge forms from OPM. HHS stated that incorrect pledge
                 forms were used and that information was incorrectly input into the system. HHS also
                 provided a corrective action plan.       The remaining organizations did not provide
                 explanations.


                 Procedure 10.
                 From the list of accounting codes that do not agree with the field office/duty
                 station, select a judgmental sample of two pledges per federal agency and request the
                 hard copy pledge form or electronic copy of the pledge form from the agency.

                 Determine if the pledge form used was for the correct campaign based on the official
                 duty station.


                 Results
                 We nonstatistically selected 61 pledges. Agencies did not provide forms for 41 pledges.
                 For the 20 pledges provided, we determined that the pledge form for 14 pledges had
                 the incorrect campaign based on the official duty station. The remaining 6 pledge




18 │ DODIG-2013-139
forms were correctly prepared by the employee, but the organization entered the
incorrect campaign code.

Table 2. Incorrect Employee Pledge Form by Organization
                                                      Correct Campaign   Campaign Code
                Federal Organization                        Code             Used
 Department of Energy                                      0481              0792
 Health and Human Services (HHS)
                                                           0405              0990
     HHS-Office of the Secretary
                                                           0211              0990
     HHS-PSC Public Health Service                         0634              0990
                                                           0923              0931
     HHS-Food and Drug Administration
                                                           0924              0931
                                                           0560              0052
     HHS-Indian Health Service
                                                           0606              0990
                                                           0407              0990
     HHS-National Institutes of Health
                                                           0405              0990
                                                           0211              0990
     HHS-Centers for Disease Control & Prevention
                                                           0990              0211
                                                           0990              0405
     HHS-Centers for Medicare and Medicaid Services
                                                           0096              0405




                                                                                         DODIG-2013-139 │ 19
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                         AUPs Agreed-Upon Procedures
                           CFC Combined Federal Campaign
                          CSRS Civil Service Retirement System
                          DFAS Defense Finance and Accounting Service
                          DOE Department of Energy
                           EPA Environmental Protection Agency
                         FEGLI Federal Employees Group Life Insurance
                          FERS Federal Employees Retirement System
                      FERS-RAE Federal Employees Retirement System-Revised Annuity Employees
                          HHS Department of Health and Human Services
                        OCFCO Office of Combined Federal Campaign Operations
                          ODO Other Defense Organizations
                          OPF Official Personnel File
                          OPM Office of Personnel Management
                         PCFO Principal Combined Fund Organization
                          RITS Retirement and Insurance Transfer System
                         SF-50 Notification of Personnel Action
                       SF-2809 Health Benefits Election Form
                       SF-2817 Life Insurance Election Form
                            VA Department of Veterans Affairs




20 │ DODIG-2013-139
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
